  DEPARTMENT OF HOMELAND SECURITY

       Office of Inspector General



         A Follow-up Review of the 

       Transportation Security Officer 

        Background Check Process





OIG-07-67                         August 2007
                                                                       Office of Inspector General

                                                                       U.S. Department of Homeland Security
                                                                       Washington, DC 20528




                                     August 16, 2007

                                         Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
oversight responsibilities to promote economy, efficiency, and effectiveness within the department.

This review serves as a follow-up to our January 2004 report entitled A Review of Background
Checks for Federal Passenger and Baggage Screeners at Airports. The current report was based on
interviews with relevant agencies, direct observations, and a review of applicable documents and
data.

The recommendations herein have been developed to the best knowledge available to our office, and
have been discussed in draft with those responsible for implementation. It is our hope that this
report will result in more effective, efficient, and economical operations. We express our
appreciation to all of those who contributed to the preparation of this report.




                                         Richard L. Skinner 

                                         Inspector General 

Table of Contents 


Executive Summary .............................................................................................................................1 


Background ..........................................................................................................................................2 


Results of Review .................................................................................................................................5 

   Background Checks Do Not Reflect the Unique Nature of TSO Position ......................................5 

   The Adjudication Process Is Designed to Identify Individuals Who Do Not Meet 

   Employment Standards ..................................................................................................................13 

   Pending Systems Improvements and Administrative Changes Should Improve the Process .......22 

   An Internal Audit Procedure Could Enhance TSO Background Checks ......................................25 


Management Comments and OIG Analysis………………………………………………………27

Appendices 

  Appendix A:               Purpose, Scope, and Methodology .......................................................................32 

  Appendix B:               Management Comments on Draft Report.............................................................33 

  Appendix C:               Recommendations from the January 2004 OIG Report .......................................39 

  Appendix D:               Recommendations in This Report ........................................................................41 

  Appendix E:               28 Disqualifying Felonies.....................................................................................42 

  Appendix F:               Survey Questions and Answers ............................................................................44 

  Appendix G:               Prehire Background Investigation Process ...........................................................47 

  Appendix H:               Posthire Background Investigation Process..........................................................48 

  Appendix I:               Major Contributors to This Report .......................................................................49 

  Appendix J:               Report Distribution ...............................................................................................50 


Tables 

   TSA Basic Investigation Requirements .........................................................................................11 

   Comparison of Three Background Checks ....................................................................................13 

   Five Bad Debt Cases From Our File Review.................................................................................16 


Abbreviations
ANACI Access National Agency Check and Inquiries
DHS       Department of Homeland Security
FSD       Federal Security Director
NACI      National Agency Check and Inquiries
OPM       Office of Personnel Management
TSA       Transportation Security Administration
TSO       Transportation Security Officer




                       A Follow-up Review of the Transportation Security Officer Background Check Process
OIG

Department of Homeland Security
Office of Inspector General


Executive Summary
                   In February 2002, the Transportation Security Administration assumed
                   responsibility for passenger and baggage screening at airports. Screening is
                   performed by Transportation Security Officers. To ensure no officer presents
                   a threat to national security or public trust, job applicants undergo a
                   background investigation. In a January 2004 report, A Review of Background
                   Checks for Federal Passenger and Baggage Screeners at Airports, we
                   discovered a variety of limitations to this background check process. We
                   conducted this follow-up review to determine the Transportation Security
                   Administration’s progress in improving its background check process.

                   We determined the process has improved since our 2004 report, but some
                   important challenges remain. Officers still undergo a background
                   investigation with employment standards exceeding most national security
                   positions, and the checks are inefficient in some respects. We concluded the
                   Transportation Security Administration has not implemented all necessary
                   steps that would improve security and reduce costs.

                   We are making nine recommendations to improve the management of the
                   background check process.




           A Follow-up Review of the Transportation Security Officer Background Check Process 

                                                 Page 1

Background
                The Transportation Security Administration (TSA) was established with the 

                enactment of the Aviation and Transportation Security Act in November 

                2001. The Act requires TSA to hire a sufficient number of Federal 

                employees, now known as Transportation Security Officers (TSOs) or 

                screeners, to conduct the screening of all passengers and baggage at airports.1

                The law requires TSOs to undergo a background investigation, including a 

                criminal record check. TSA must ensure TSOs are U.S. citizens who have no 

                convictions within the past 10 years for 28 specific disqualifying felonies (see 

                Appendix E).2 The background check process for TSOs judges an 

                individual’s credit and criminal history, honesty, use of intoxicants, and other 

                factors. 


                TSA was established as an agency with “excepted service” employees instead 

                of “competitive service” employees. Such a designation was meant to provide 

                greater flexibility in management of personnel.3 Congress decided to give 

                TSA the latitude to determine the terms of employment of TSOs. The 

                Aviation and Transportation Security Act grants TSA the power to employ, 

                appoint, discipline, terminate, and fix the compensation for TSOs, 

                notwithstanding any other provision of law.4


                Starting in Fiscal Year 2004, Congress instituted a national cap of 45,000 full 

                time equivalent TSOs.5 TSA has usually maintained a staffing level slightly 

                below this threshold. Based on data we received from TSA, there were 

                41,093 full-time equivalent TSOs in May 2007. 


                To assess each applicant’s suitability for TSO positions, TSA takes 

                information from various credit and criminal history checks and compares the 

                individual’s record with the agency’s suitability standards. To expedite 

                hiring, a prehire process is used that only evaluates an individual’s credit 

                history and any fingerprint records held by the Federal Bureau of 

                Investigation. Successful completion of this phase allows the individual to 

                begin work as a TSO while a more elaborate posthire background check is 



                1
                  49 U.S.C § 44901(a). Although the term TSO was developed in 2006 as the 

                new title for passenger and baggage screeners, this report will use the term

                TSO when referencing the position in prior years. 

                2
                  49 U.S.C. § 44935(e); 49 U.S.C § 44936(b).

                3
                  49 U.S.C. § 114(n); 49 U.S.C. § 40122(g)(1).

                4
                  49 U.S.C. § 44935 note.

                5
                  Department of Homeland Security Appropriations for FY 2004 through 

                2007; Pub. L. 108-90, Title II (Oct. 1, 2003); Pub. L. 108-334, Title II (Oct. 

                18, 2004); Pub. L. 109-90, Title II (Oct. 18, 2005); Pub. L. 109-295, Title II 

                (Oct. 4, 2006). 


        A Follow-up Review of the Transportation Security Officer Background Check Process 

                                              Page 2

        performed. The Office of Personnel Management (OPM) performs the
        posthire background check, which can take several months.

        TSA has adopted hiring policies that exceed what is required by law:
          • 	 Although few TSOs receive security clearances, they undergo the
              same kind of background investigation designed to grant secret or
              confidential clearances: an Access National Agency Check with
              Written Inquiries.
          • 	 TSA has adopted and expanded on OPM’s suitability guidance to
              improve the agency’s ability to detect undesirable behaviors and
              potential security or public trust risks in its TSO workforce.

        In 2003, based on reports of incomplete and possibly flawed background
        checks, we reviewed TSA’s process for checking the backgrounds of TSOs.
        This led to a January 2004 report, A Review of Background Checks for
        Federal Passenger and Baggage Screeners at Airports. We noted that due to
        the rapid pace and high volume of hiring required getting the organization
        started, “TSA was hiring screeners before it was organized to do so.”6 We
        made 12 recommendations to improve the management of the background
        check process (see Appendix C).

        TSA created an action plan to resolve most of our recommendations. Because
        our 2004 report covered a period of intense hiring, TSA believed that many
        problems would be temporary. Because of incomplete documentation from
        TSA, three recommendations in the 2004 report were still open in September
        2006 when fieldwork for this follow-up review began. As this review
        progressed, we worked with TSA to close the 2004 recommendations.

        Although TSA has passed its initial hiring challenges, the agency still hires a
        large number of TSOs each year. TSA hired 32,527 TSOs, an average of
        more than 900 a month, from October 2004 through September 2006. One
        TSA manager said this degree of “attrition hiring” is necessary because of a
        high occurrence of staff turnover. GAO reported that TSOs in 2005 had an
        attrition rate of 23% overall, with turnover for part-time employees exceeding
        50%.7 Fortunately there are signs that this rate of turnover is abating. TSA
        hired 5,134 fewer TSOs in 2006 compared to 2004.

        TSA has moved toward a less centralized hiring system in order to meet the
        differing needs of the Nation’s airports. Meanwhile, the agency continues
        efforts to decrease turnover among TSOs. Additionally, six airports currently
        have privatized screening workforces under the Screening Partnership

        6
          DHS OIG, A Review of Background Checks for Federal Passenger and
        Baggage Screeners at Airports, OIG-04-08, January 2004, page 28.
        7
          GAO, Aviation Security: Enhancements Made in Passenger and Checked
        Baggage, but Challenges Remain, GAO-06-371T, April 4, 2006, p. 9.

A Follow-up Review of the Transportation Security Officer Background Check Process 

                                      Page 3

        Program, which allows private companies to run screening operations at the
        approved airports.

        Other factors have drawn attention to TSA hiring practices. A FY 2005 OIG
        report was initiated due to thousands of incidents of alleged baggage theft at
        airports.8 In April 2006, six TSOs at airports in Texas were arrested for
        falsifying employment forms. These employees did not disclose arrests that
        were later discovered. There have been other incidents across the country
        where TSOs were arrested for theft or other unlawful activities.




        8
         DHS OIG, A Review of Procedures to Prevent Passenger Baggage Thefts,
        OIG-05-17, March 2005.

A Follow-up Review of the Transportation Security Officer Background Check Process 

                                      Page 4

Results of Review
                   TSA has made some important improvements since our January 2004 report.
                   One way we measured progress was through a survey of Federal Security
                   Directors (FSDs), the people who manage TSA operations at airports. We
                   learned that the movement away from centralized hiring was widely praised as
                   an important reason for positive change in the TSO background check
                   process. Survey respondents said that the process is “markedly improved”
                   and “much better.”

                   Additional changes and operational revisions are still necessary to ensure
                   continued improvement and greater efficiency in the TSO background check
                   process. The strategic limitations in the process TSA now uses to conduct
                   TSO background checks have created some inefficiency. Our
                   recommendations can improve the adjudication process by implementing TSA
                   standards more quickly and making more efficient use of resources. Also, the
                   interaction between TSA components can be enhanced to administer the
                   background check process better. Improvements along the entire process
                   continuum would offer more useful information, provide for faster decisions,
                   and augment intra-agency communication.

Background Checks Do Not Reflect the Unique Nature of TSO Position
                   Statutory Foundation of the TSO Position
                   The Aviation and Transportation Security Act requires TSA to screen all 

                   passengers and personal property that will be carried aboard a passenger 

                   aircraft originating in the United States.9 This screening is to take place 

                   before passengers board an aircraft and must be carried out by a federal 

                   employee or a contractor under the Screening Partnership Program.


                   Although TSA was directed by the Act to follow the Federal Aviation 

                   Administration’s personnel management system, Congress also gave the 

                   agency latitude to determine the terms of employment of TSOs. According to 

                   Section 111(d) of the Aviation and Transportation Security Act, 

                   “Notwithstanding any other provision of law,” TSA may “employ, appoint, 

                   discipline, terminate, and fix the compensation, terms, and conditions of 

                   employment of Federal service” for TSOs.10 A number of legal cases have 

                   challenged the strength of this statute. Without exception, it has been 

                   determined that the notwithstanding clause overrides any other conflicting 

                   provisions.11



                   9
                     49 U.S.C. § 114(n).

                   10
                      49 U.S.C. § 44935 note.

                   11
                      See, e.g., Brooks v. Department of Homeland Security, 95 M.S.P.R. 464, 

                   (2004); Schott v. Department of Homeland Security, 97 M.S.P.R. 35 (2004); 


           A Follow-up Review of the Transportation Security Officer Background Check Process 

                                                 Page 5

       TSA is exempt from certain Federal personnel laws, including parts of Title 5
       of the United States Code. Subsections of Title 5 dealing with whistleblower
       protection, veterans’ preference, and antidiscrimination still apply to TSA.
       Some TSA employees, but not TSOs, have appeal rights to the Merit Systems
       Protection Board under certain conditions.12

       Congress specifically prohibited the hiring of an individual with a conviction
       in any of 28 disqualifying felonies in the previous 10 years.13 Background
       checks for TSOs must include a criminal record check, and a review of
       available law enforcement databases and records of other governmental and
       international agencies, as determined necessary by TSA. Other than these
       mandates in the Aviation and Transportation Security Act, the extent of the
       background check is within the discretion of TSA.14

       TSOs Are Generally Held to Standards Designed for Other Positions
       The TSO background check process does not take advantage of the statutory
       discretion granted by Congress. TSA has adopted policy identical to many
       statutes from which the agency is exempt. Title 5 of the Code of Federal
       Regulations, section 731.202, establishes criteria for making competitive
       service suitability determinations. The standards are referred to as the OPM
       Suitability Factors. TSA is not bound to implement these competitive service
       standards. The agency, nonetheless, has opted to use them for TSO
       adjudication. Based on our review of 36 ineligible files, 6 cases, or 17%, were
       denied in the posthire process based on parameters found in the OPM
       Suitability Factors.

       In addition to these general standards, TSA has adopted the “OPM Suitability
       Issue Ranking Chart,” which gives specific instructions on how to weigh
       issues of suitability. When determining the suitability of TSOs, TSA has also
       adopted the standards of Executive Orders 10450 and 12968, which apply to
       positions granted security clearances. Both executive orders are cited several
       times in guidance provided to those adjudicating TSO background checks,
       even though few TSOs need, or are granted, clearances.

       Decisions to adopt existing government standards were made, according to
       TSA policy, to “promote government-wide uniformity and fairness in
       suitability case processing and adjudication.” The agency may wish to alter
       these standards and can do so at any time. TSA should use existing federal


       Spain v. Department of Homeland Security, 99 M.S.P.R. 529 (2005); Conyers
       v. Merit Systems Protection Board, 388 F.3d 1380, 1382-83 (Fed. Cir. 2004).

       12
          Brooks v. Department of Homeland Security, 95 M.S.P.R. 464, ¶ 13 (2004); 

       see, 49 U.S.C. § 44935.

       13
          49 U.S.C. § 44936(b).

       14
          49 U.S.C. § 44936(a)(1). 


A Follow-up Review of the Transportation Security Officer Background Check Process
                                      Page 6
        guidelines as a basis for its own determinations about suitability, but the
        unique nature of the TSO position requires specific suitability standards
        outside of OPM’s existing guidance. At a minimum, suitability standards
        designed for competitive service employees should be evaluated by TSA
        continuously.

        Although TSA is only required by the Act to disqualify an applicant who was
        convicted of one of the 28 specific felonies within the past 10 years, the
        agency has enhanced its standards to include some additional disqualifying
        felonies and misdemeanors. TSA standards are more stringent than OPM’s in
        two areas with a significant influence on public trust: misdemeanor and felony
        theft. Under TSA’s enhanced standards, any theft conviction within the past
        15 years is disqualifying. The Aviation and Transportation Security Act
        requires that felony theft be disqualifying only if the conviction occurred in
        the past 10 years. Under OPM suitability standards, a felony theft conviction
        by itself would be potentially disqualifying if it occurred in the past 3 years.

        In addition to these disqualifications, TSA policy allows adjudicators to look
        beyond the 15-year standard to consider conduct after age 18 that has a
        potential negative affect on suitability for a TSO position. Thus, a 50-year-old
        TSO could be dismissed as a result of a posthire adjudication for a pattern of
        theft committed two or three decades before. We did not see such cases in our
        file review.

        Based on our review of 36 ineligible files, 12 cases, or 33%, were denied in
        the post- hire process because of a disqualifying factor from the TSA
        enhanced standards. During our fieldwork, various interviewees noted that
        TSA is reviewing the utility of its enhanced standards. Abandoning the
        standards completely would weaken the agency’s ability to fully consider the
        impact of some undesirable behaviors in the TSO workforce.

        TSA Uses Inappropriate Forms to Solicit Information From Applicants
        TSA uses pre-existing government forms in the TSO hiring process. While
        these forms are appropriate for most federal employees, given the more
        exacting standards for TSOs, the forms do not provide TSA with sufficient
        information to make a determination, and can confuse applicants. By crafting
        a process specifically tailored to the TSO position, TSA can gain better
        information about applicants, make more accurate decisions on the suitability
        of individual candidates, and more efficiently manage its personnel security
        operations.

        The SF-86 is used as part of the TSO’s background check. Instructions on
        this form note that it is to be used “primarily as the basis for investigation for
        access to classified information.” Applicants are instructed to “complete this
        form only after a conditional offer of employment has been made for a
        position requiring a security clearance.” Thus, TSOs are using a form not


A Follow-up Review of the Transportation Security Officer Background Check Process 

                                      Page 7

        meant for their position. In the past, TSOs used the SF-85P, Questionnaire for
        Public Trust Positions, which is a form not used in granting security
        clearances. OPM requires that cases be submitted on an SF-86 to receive all
        services of an Access National Agency Check and Inquiries (ANACI)
        investigation. Thus, TSA instituted policy to have TSOs use the SF-86.

        The SF-86 does not contain questions tailored to determine suitability for the
        TSO position, making the form a poor choice for that purpose. The SF-86
        only questions the applicant about the past 7 years, less than half of the period
        reviewed under TSA’s 15-year enhanced standards. There were examples in
        case files of individuals questioning their dismissal because the termination
        standard was different from information requested on any pre-employment
        paperwork.

        Additional Work Is Required to Educate TSOs About Various Hiring
        Standards
        In addition to the OPM Suitability Factors and the 28 Disqualifying Felonies,
        TSA has adopted enhanced standards, additional disqualifying convictions,
        and an expanded period of review for certain types of conduct. Many of these
        enhanced standards are TSO-specific and designed to ensure the integrity of
        the workforce.

        Employment application materials do not provide information about specific
        standards used to judge an individual’s fitness for a TSO position. Applicants
        are not informed of the 28 Disqualifying Felonies or TSA’s enhanced
        standards. TSOs can therefore be surprised to learn they will be dismissed for
        theft-related arrests and other offenses committed within 15 years of the
        application. Applicants are asked to complete the Declaration of Federal
        Employment (OF-306) and self-disclose all convictions in the past 10 years
        when they begin the prehire investigation. The prehire adjudicators we spoke
        with said the review of the OF-306 is not sufficient to judge a person’s
        suitability for a TSO position. The Questionnaire for National Security
        Positions (SF-86) also asks an individual to self-disclose arrests and
        convictions in the past 7 years; however, the form is submitted after
        employment has begun. For a number of suitability issues, a posthire letter of
        interrogatory will be the first opportunity for an applicant to disclose
        potentially disqualifying information.

        In our survey of Federal Security Directors (FSDs), we asked their opinion
        regarding whether TSO applicants have sufficient knowledge of adjudication
        standards. Of the 66 FSDs who answered the question, 47, or 71%, said that
        TSO applicants are given adequate information prior to hiring about standards
        used in their background check. Nonetheless, improvements are needed in
        this area. One FSD used the survey to say, “I constantly get inquiries from
        candidates about what criteria will be used for the criminal and credit checks.”
        Another FSD suggested adding information about TSA’s standards to the


A Follow-up Review of the Transportation Security Officer Background Check Process 

                                      Page 8

        original computer assessment to identify ineligible applicants before hiring.
        Another FSD said, “I feel uncomfortable” granting an airport access badge
        “when I do not in fact know that a proper review has been conducted.”

        An individual’s financial responsibility is based on credit history, disregard
        for debts, or abuse of fiduciary trust. Currently, TSA uses a $5,000 “bad
        debt” threshold. Applicants who exceed this limit are disqualified from
        employment as a TSO. According to Kroll Government Services, which
        performs the prehire background check for TSA, this financial standard
        disqualifies 22% of the agency’s applicants. The team leader at TSA who is
        charged with implementing prehire adjudications said TSO applicants’ credit
        rejections are likely higher than the TSA average because of the relatively low
        pay of the TSO position. Bad debt rejections are also high in the posthire
        adjudication process. Several TSA officials speculate that the low pay TSOs
        earn might be a reason why credit problems develop after hiring. Based on
        our review of 36 ineligible files, 14 cases, or 39%, denied in the posthire
        process had bad debt as the primary disqualifying factor.

        Applicants are informed only once about TSA’s financial standards. We
        believe this is insufficient to fully inform potential TSOs of the agency’s bad
        debt standard. Online TSO job announcements were revised in 2006 to
        inform applicants: “If your credit check reveals that you have defaulted on
        $5,000 or more in debt (excluding certain circumstances of bankruptcy), owe
        any delinquent Federal or State taxes, or owe any past due child support
        payments, you will not be eligible for this position.” This additional language
        was a positive step, but thousands of individuals who exceed the $5,000
        threshold still apply for TSO positions. One FSD said, “TSOs need to know
        earlier in the process what the debt requirements are.” Because of the large
        number of applicants rejected for credit problems, TSA needs to do more to
        educate potential and current TSOs about the credit standard. If major credit
        issues are revealed in the prehire background check, a letter of interrogatory is
        the first opportunity for an applicant to disclose the information.

        By providing more information to applicants and collecting better data on
        individuals’ backgrounds, TSA would perform fewer checks, leading to
        financial savings and diminished workload for adjudicators.

        We recommend that the Assistant Secretary, TSA:

        Recommendation #1: Create and implement employment forms that collect
        information on the applicant pursuant to eligibility standards. Adjudicators
        should review these forms prior to a TSO’s entry on duty.

        Risk Designation Process Was Driven by DHS and TSA Policy
        As an essential first step in planning background checks, agencies evaluate
        how much risk to the efficiency of federal service or to the national security is


A Follow-up Review of the Transportation Security Officer Background Check Process 

                                      Page 9

        involved in a position. The evaluation leads to a written position risk
        designation, which is required by Executive Order 10450. The position risk
        designation determines what kind of background check is required for various
        positions throughout the federal government.

        According to the TSA Personnel Security Manual, a sensitivity level is
        designated to all positions requiring access to classified information. Since
        TSOs generally do not access such material, it is unclear how to proceed with
        assigning a sensitivity level or whether one should be assigned at all.
        Positions requiring access to Confidential or Secret information are designated
        as at least “non-critical sensitive,” but there is no explanation on how to
        proceed with a position that does not require access to classified information.

        In January 2004, we recommended TSA complete screener position risk
        designations with input from DHS and TSA offices. TSO position risk
        designation records, position descriptions, and vacancy announcements were
        to reflect the correct designation. Since 2004, there has been a significant
        improvement in the consistency of risk designation. We checked vacancy
        announcements posted on three dates in late August, early October, and early
        December 2006, a total of nearly 400 different TSO job postings. Only two of
        these announcements did not include the “non-critical sensitive” designation.

        Although a TSO risk designation was conducted by TSA in 2004, the process
        did not determine the type of background check TSA should use for TSO
        positions. TSA provided us a Position Designation Record for the TSO
        position listing its “sensitivity level” as “non-critical sensitive” and its “risk
        level” as “moderate risk.” Additionally, TSA’s Office of Counsel said that
        the use of the current background check was “a question of policy.” The
        comments section of the designation record corroborates this view by stating,
        “DHS has mandated that all positions are classified as national security
        positions.” TSA implemented this standard by establishing that all employees
        must be “clearance eligible.” This required use of at least the Access National
        Agency Check and Inquiries background check.

        TSA’s process led to results that did not consistently show which risk
        designation was appropriate for TSOs. In its Position Designation Record, the
        TSO position was given an unadjusted “moderate” risk level. An
        investigation type of “minimum background investigation” was also
        designated on the form. According to the Manual, moderate risk positions
        require only a National Agency Check and Inquiries, a less rigorous review
        than the ANACI that would not suffice to make a TSO “clearance eligible.”15
        One individual in the Personnel Security Division said that “we couldn’t
        afford” the additional expense of a minimum background investigation, which
        is over twice the cost of an ANACI. Although the final adjusted risk level is

        15
             TSA Personnel Security Manual, § 5.3.5.

A Follow-up Review of the Transportation Security Officer Background Check Process 

                                      Page 10

        “moderate,” a minimum investigation of ANACI is listed. Table 1 lists the
        basic investigation requirements.


                           Table 1. TSA Basic Investigation Requirements

             Risk/Sensitivity Level                Minimum Investigation Requirement
           Special or Critical Sensitive    Single Scope Background Investigation
           Non-critical Sensitive           Access National Agency Check with Written Inquires
           High Risk                        Background Investigation
           Moderate or Low Risk             National Agency Check with Written Inquires


        Officials in TSA’s Personnel Security Division said the ANACI was chosen
        as an investigation level for TSOs “in case they need Secret Clearances in the
        future.” Thus, the decision to assign an ANACI investigation to the TSO
        position was based on DHS and TSA policy, not a risk analysis and
        designation.

        We recommend that the Assistant Secretary, TSA:

        Recommendation #2: Complete a comprehensive screener position risk
        designation using criteria provided by personnel security officials in the
        Department of Homeland Security and appropriate TSA offices.

        The Current Background Check Process for TSOs Shows Signs of
        Inefficiency
        By not using its distinct legal authority to create a more unique process, TSA
        has created inefficiencies that need to be corrected. TSA’s risk designation
        system recommends that “moderate risk” positions should receive, at least, a
        National Agency Check and Inquiries (NACI) investigation. To comply with
        DHS policy, TSOs undergo an ANACI investigation, which is the minimum
        investigation for those who receive Confidential or Secret security clearances.
        Since very few TSOs receive clearances, we believe the use of the ANACI
        expends TSA resources needlessly for limited gain. As a result of the risk
        designation, TSA has elected to use processes and existing standards not
        suited to the unique nature of the TSO position.

        The NACI, which costs $100, is an investigation involving a national agency
        check and written inquiries to applicable local enforcement agencies, schools,
        and references. The ANACI investigation differs from the NACI in two
        major respects. The ANACI adds a credit check and a field investigation of
        local law enforcement records if the locality does not respond to a written
        inquiry. An ANACI costs $220 per investigation. Historically, NACIs are
        usually completed more quickly than the ANACI, but for Fiscal Year 2006,
        TSA’s ANACIs were completed by OPM 50 days faster than the NACI.



A Follow-up Review of the Transportation Security Officer Background Check Process 

                                      Page 11

        Before TSO applicants begin employment, they undergo a credit check and
        criminal record check that relies on court records. Kroll performs the prehire
        credit check at a cost of $26 per applicant. The ANACI’s credit check is then
        completed after the employee is hired. This credit check is usually completed
        in the first 2 days of the ANACI’s initiation, though adjudicators do not
        review the credit check until after the ANACI is completed. Interestingly,
        even with a prehire credit check, the posthire check completed by OPM still
        finds a large number of TSOs unsuitable based on TSA’s bad debt standard.

        TSA argues that the use of both the Kroll and OPM criminal record checks is
        justified. During the prehire phase of the TSO background check, Kroll
        performs a local court check that costs $56 per applicant. A local court check
        is different from a local law enforcement check; the former will list only
        charges and convictions while the latter also lists arrests. An arrest that did
        not lead to a charge or conviction is of limited use to adjudicators, because the
        arrest itself is not a disqualifying factor.

        Adjudicators and officials in the Personnel Security Division expressed
        frustration regarding ANACIs received from OPM in “closed pending” status.
        These cases include some pending or incomplete information. Adjudicators
        claimed such cases make their jobs difficult. One adjudicator said she often
        had to contact pending sources herself to confirm past employment and
        education of TSOs. All cases in our sample of eligible and ineligible TSO
        adjudication files contained at least one pending inquiry, and 16 percent of our
        sample contained evidence that some law enforcement agencies were not
        contacted for records. Such gaps in individuals’ records led a senior
        Personnel Security Division official to say that the ANACI was “worthless” in
        determining whether a TSO is suitable for employment. The Chief of the
        DHS’s Personnel Security Division told us that the ANACI is not used for
        headquarters employees in the department.

        Since the ANACI is held in low regard, TSA needs to reevaluate the utility of
        this type of check compared to others. Currently, the primary justification
        TSA adheres to for using the ANACI is the need to make TSOs “clearance
        eligible.” This is not sufficient justification where much less expensive or
        more useful checks are available. Paying to grant 42,000 individuals a secret
        clearance, and then not granting them, is an inefficient practice. Better
        options may exist. For example, the NACI is slightly less detailed, but it costs
        half of the ANACI’s amount, even after a $10 credit check is added. A
        Minimum Background Investigation would more than double the cost of the
        current ANACI, while providing the opportunity to evaluate an individual
        through a personal interview.

        Except for rare occurrences, ordering the more detailed Minimum Background
        Investigation for all TSOs is cost ineffective. Based on our interviews and
        data analysis, the ANACI is not valuable. The NACI check offers similar


A Follow-up Review of the Transportation Security Officer Background Check Process 

                                      Page 12

                    information for half the cost. The Kroll criminal check offers a similar review
                    at a much lower cost than the ANACI. By reviewing its options in more
                    detail, TSA can find a more cost-effective method of background
                    investigation, or determine if OPM even needs to perform a criminal record
                    check, since Kroll performs one in the prehire process.

                    Table 2 compares the three background checks.

                                    Table 2. Comparison of Three Background Checks

                                               National Agency              Access National        Minimum
                                               Check and Inquiries          Agency Check           Background
                                               and Credit Check             and Inquiries          Investigation
               Items covered by check          Review of various            The NACI, plus         The ANACI,
                                               federal systems and          personal follow-up     plus a
                                               records; written             if response not        personal
                                               inquiries into previous      received to written    interview
                                               employment, education,       inquiries.
                                               and criminal records
               Personal Interview                          No                       No                 Yes
               2007 cost for 8,747 TSOs                $962,170                 $1,924,340          $4,592,175
               (equal to number hired in
               Fiscal Year 2006)


                    TSA recently took steps to eliminate a major expense. The $390 medical
                    check was originally provided while the prehire credit check took place.
                    Thus, thousands of annual applicants who were disqualified by the prehire
                    credit check received a medical check. Assuming the 22% prehire rejection
                    rate of the credit check and the hiring of 32,527 TSOs over the past 3 fiscal
                    years, over 9,000 applicants were deemed ineligible by the credit check.
                    Medical checks for these 9,000 individuals cost $3.5 million. A TSA memo
                    delaying the medical evaluation was not finalized until November 2006.

                    We believe that better application forms, a thorough risk designation
                    mechanism, and continued oversight over implementation of the background
                    check process will create a great deal of efficiency for TSA. As a revised
                    process is implemented, TSA will be able to craft policies that relate directly
                    to the unique TSO position, ensuring immediate and long-term improvements.

                    Recommendation #3: Select the background check most appropriate for the
                    TSO position based on the findings from the risk designation process.

The Adjudication Process Is Designed to Identify Individuals Who Do Not Meet
Employment Standards
                    TSA’s Personnel Security Division administers the adjudication process for
                    TSOs. Through both federal and contracted adjudicators, the Division
                    conducts the numerous steps required to complete a background check, which

            A Follow-up Review of the Transportation Security Officer Background Check Process 

                                                  Page 13

        ends with a determination of an individual’s suitability for a TSO position.
        The two primary factors leading to determination of a TSO’s ineligibility are
        criminal activity and bad debt exceeding $5,000.

        Letters of interrogatory are used to request additional information from
        applicants or TSOs when the agency wishes to know more about issues that
        could pose suitability problems. These letters can be sent to either applicants
        or employees, depending on the phase of the background check process that
        revealed questionable information.

        We examined the adjudication decisions made for 77 individuals. Of these,
        40 were hired and 37 were not hired. Our review of adjudication files
        illustrated for us the challenges TSA faces from the limitations discussed
        earlier in this report, but we did not find cases where TSA hired someone with
        obviously disqualifying criminal convictions.

        The TSO Adjudication Process Determines a Person’s Risk to Security
        and Public Trust
        According to the TSA Personnel Security Manual, adjudication is “an
        examination of a sufficient period a person’s life to make an affirmative
        determination that the person is an acceptable security risk.” After a TSO is
        hired and their ANACI is completed, an adjudicator reviews the results. The
        court records check performed by Kroll is also reviewed, as well as each
        person’s SF-86 and OF-306. Based on this material, the adjudicator will
        complete an adjudication worksheet that summarizes potentially disqualifying
        issues and recommends a course of action. If an adjudicator is concerned
        about an issue or additional information is needed, a letter of interrogatory is
        sent that requests further details from the TSO. An adjudicator approves an
        employee’s background check if the process ends without the existence of
        disqualifying issues.

        The 28 disqualifying felonies found in the Aviation and Transportation
        Security Act do not offer discretion for adjudicators. Individuals with
        convictions in these areas cannot be hired. However, most criminal conduct is
        not automatically disqualifying. For example, one drunk driving conviction or
        even misdemeanor spousal abuse would not necessarily prohibit an individual
        from being a TSO. When faced with such issues from an individual’s file, an
        adjudicator weighs various factors, with special emphasis on more recent
        conduct. For example, a drunk driving conviction from a few months before
        would weigh more heavily than a conviction that occurred 10 years before.

        In October 2003, TSA published an adjudication guide for use in examining
        the criminal and credit history of TSOs. This document, the Screener
        Standardization Guide, was revised in September 2004. Adjudicators use the
        guide and other reference materials to make determinations of eligibility for
        TSO applicants and those on the job. Another document, the Personnel


A Follow-up Review of the Transportation Security Officer Background Check Process 

                                      Page 14

        Security Manual, provides general guidance on how adjudicators are to make
        suitability determinations for TSA employees.

        The Personnel Security Division completes the prehire credit and fingerprint
        checks. If this process reveals no disqualification, the candidate begins work
        as a TSO, and the ANACI-based background check begins. After the ANACI
        is completed by OPM, depending on the location of the airport where the TSO
        works, the Personnel Security Division will use one of three regional teams to
        conduct posthire adjudications.

        The time needed to dismiss TSOs who are determined ineligible in the
        posthire phase can be significant. New employees have 2 weeks to submit
        their SF-86. An ineligible individual, who promptly fills out all necessary
        forms, responds to letters of interrogatory, or self-discloses disqualifying
        information, may still remain employed for a protracted period. An individual
        who does not fill out forms or is slow to reveal disqualifying information can
        remain employed for an even longer time. We view these delays as
        significant.

        Federal Security Directors differ in their views on the effect of this extended
        period. Forty-one of 66 FSDs said the process did not cause major problems,
        but it should be faster, while 14 said the time required to complete
        adjudications did not affect daily airport operations. Eleven of the 66
        responding FSDs said major problems are caused by the slow nature of the
        process. One FSD mentioned an employee fired for suitability reasons after 4
        ½ years on the job. In some cases reported to us by FSDs, individuals who
        received several letters of interrogatory from TSA ended up resigning before
        TSA moved to terminate their employment. These included two cases where
        individuals worked for an extended period without even filling out forms
        necessary to begin the posthire background check.

        Adjudicators Use A Bad Debt Standard as Part of their Evaluation
        TSA has instituted a policy prohibiting the hiring or continued employment of
        an individual with more than $5,000 of bad debt. Several types of past due
        accounts can be considered bad debt, including items assigned to a collection
        agency or part of a dismissed bankruptcy.

        As the Personnel Security Manual notes, “An individual who is financially
        overextended is at risk of having to engage in illegal acts to generate funds.”
        We discovered evidence showing some cases where TSA took over 14 months
        to terminate individuals with ongoing credit problems. Because so many
        TSOs fail the adjudication process due to credit issues, consistent and timely
        implementation of the bad debt threshold is an important part of TSA’s
        personnel security efforts.




A Follow-up Review of the Transportation Security Officer Background Check Process 

                                      Page 15

        Adjudicating credit issues can be complicated. Personnel security staff must
        determine if specific overdue amounts qualify as bad debt. Also, a TSO may
        respond to an interrogatory letter with updated credit information, such as
        evidence of payment or proof of payment plans. This means the process could
        take longer than simply reviewing an individual’s credit report.

        Table 3 shows five cases from our file review where an extended period of
        time elapsed before an individual was terminated for credit reasons. In these
        and other instances, TSA pulled multiple credit reports and waited many
        months before taking action against TSOs with serious debt problems. The
        Screener Standardization Guide requires an individual to respond to a bad
        debt interrogatory letter within 30 days; however, TSA was slow to act when
        it failed to receive a response, or a TSO’s letter was incomplete.

                             Table 3. Five Bad Debt Cases In Our Sample

                                         Case A       Case B       Case C       Case D       Case E
          First credit report date       2/1/05       6/4/04       9/30/04      9/26/05      9/15/05
          Days until first letter of     141          147          176          28           0
          interrogatory sent
          Days until second credit       146          203          419          112          110
          report
          Days until second letter       104          N/A          N/A          8            N/A
          of interrogatory
          Days until termination         133          78           134          192          71
          letter
          Total days from first          524          428*         729          340          181**
          credit report to
          termination of TSO

        * This individual resigned on the 428th day.

        ** This individual requested reconsideration of the termination decision, which was denied. 

        For a reason not evident in the case file, the original termination letter was rescinded. A final 

        termination letter was sent 6 months after the original termination letter. 


        The file for Case B included an electronic mail message from an adjudicator
        to airport management noting, “I can not make a decision” in the applicant’s
        favor, and requesting that the TSO contact the adjudicator. This message was
        sent 10 weeks after a second credit report had been pulled with bad debt far in
        excess of TSA’s standard. Action should have been taken much sooner.

        These cases display the time that can pass between credit checks, letters of
        interrogatory, and TSA action. Neither the Screener Standardization Guide
        nor Personnel Security Manual envisions such a protracted process. Moving
        more quickly to terminate employees with ongoing debt problems gives TSA
        an opportunity to truly implement an important suitability criterion. The large
        number of applicants rejected because of credit problems highlights the need
        to close bad debt cases for TSOs who fail to meet TSA’s credit standard.



A Follow-up Review of the Transportation Security Officer Background Check Process 

                                      Page 16

        Officials in TSA’s Employee Relations Office shared some suggestions on the
        general use of letters of interrogatory. These officials believe the letters need
        to be more direct, specifically outlining actions required by the recipient, as
        well as enforcing timeframes found in TSA policy. TSOs and applicants need
        to understand that failure to respond to the letters will have consequences. It
        was suggested that the letters inform TSOs or applicants that they will be
        dismissed or deemed ineligible in a certain number of days if a response to the
        letter of interrogatory is not received.

        Improvements to interrogatory letters are key to enforcing reasonable time
        frames. Letters of interrogatory are necessary to collect additional
        information from candidates, but they must not be a major source of delay in
        the adjudication process. Individuals who currently reply to the letters with
        disqualifying information are being terminated more rapidly than those with
        similar problems who game the system through a lack of response to TSA.

        We recommend that the Assistant Secretary, TSA:

        Recommendation #4: Issue a notice of disqualification to applicants or a
        letter of termination to TSOs who fail to respond to letters of interrogatory
        within 30 days of receipt.

        TSA Adjudicators Need More Training About the Falsification Standard
        Adjudicators review the honesty of an applicant or employee by focusing on
        whether an applicant or employee falsifies information on their SF-86 or OF­
        306 forms. If information is revealed during a background investigation that
        contradicts information on submitted documents, an accusation of falsification
        may arise. Falsification determinations are much more subjective compared
        to other types of suitability issues, such as bad debt or illegal behavior.

        Applicants are required to sign the SF-86 form. By signing the form, the
        applicants attest that they are aware that knowingly falsifying or concealing a
        “material” fact is a felony. According to the TSA-adopted “OPM Suitability
        Issue Chart/Characterization Chart,” falsification that is more recent is a
        disqualifying issue on level with armed robbery or murder and would keep
        someone from being employed in federal service for at least 3 years. One
        instance of falsification by itself may support a negative suitability
        determination.

        There are two major issues in determining whether an applicant has
        committed falsification. First, it must be clear the offense was intentional.
        Second, the information omitted or misrepresented must be classified as
        “material.” Proving an intentional omission or misrepresentation of fact can
        be difficult. For example, an applicant with a credit problem may not know
        that the bad debt exists, or the extent of the debt may be unknown.
        Additionally, individuals can be charged with an arrest when they are not


A Follow-up Review of the Transportation Security Officer Background Check Process 

                                      Page 17

        present or they may believe a conviction was reduced or expunged. Also, an
        applicant may not understand a question asked on the SF-86 or may have
        simply forgotten to reveal information.

        For competitive service applicants, a “material” statement is one capable of
        influencing, or having a natural tendency to affect, an official decision.16 This
        definition does not apply to excepted service TSOs. For TSO adjudications,
        TSA has recommended the definition of “material” be a conviction of a
        disqualifying offense or a “substantial” and “major” issue as outlined in the
        OPM Issue Characterization Chart. A false but immaterial statement is
        considered a “minor” suitability issue. Thus, a TSO who does not display a
        pattern of dishonesty may be declared suitable and hired after making a false
        statement about an immaterial fact.

        OPM retains jurisdiction in all competitive service cases involving evidence
        of material, intentionally false statements, deception, or fraud.17 Agencies
        must refer these cases to OPM for adjudication. Since TSO positions are
        excepted service, TSA adjudicators must judge these cases. Unlike OPM,
        TSA officials and adjudicators receive no specialized training on falsification.
        Additionally, most applicants can appeal to a TSA disciplinary review board
        only if they have been employed by TSA for 2 years.

        In 2005, our investigation of Houston-area TSOs discovered 30 applicants had
        possibly falsified the SF-86. These falsifications involved the omission of
        arrests that were later revealed in the background investigation. After TSA
        sent interrogatory letters to the individuals in question, the agency concluded
        that 24 of the cases were not serious enough to be considered material
        falsifications. For the remaining six cases, the U.S. Attorney’s Office for the
        Southern District of Texas, working with our Office of Investigations, pursued
        criminal charges. Only one of the six falsification charges led to a conviction.
        The other cases were dismissed after the omission of fact was determined to
        be unintentional or immaterial. Two of the six individuals were determined to
        be eligible for employment by TSA; only one so far has pursued a return to
        duty.

        Our review of files led us to believe TSO adjudicators need a better
        understanding of how falsification criteria should be applied. This can come
        through formation of more complete policy guidance followed by additional
        adjudicator training. TSA adjudicators have applied accusations of
        falsification broadly and routinely. In some cases, letters of interrogatory
        accused individuals of falsification because criminal charges were not
        disclosed, but the information was never asked for on the SF-86. In other
        cases, TSA used the OPM competitive service definition of falsification in

        16
             5 C.F.R. § 731.101(b).
        17
             5 C.F.R. § 731.103(a).

A Follow-up Review of the Transportation Security Officer Background Check Process 

                                      Page 18

        termination letters and letters of interrogatory. In many bad debt cases,
        applicants were accused of falsification when no clear intent to falsify was
        established. The DHS Personnel Security Division Chief said falsification for
        bad debt is very difficult to sustain, an observation with which TSA
        adjudicators concurred. The existence of undisclosed bad debt is not
        necessarily evidence of intentional misrepresentation by the applicant.

        In December 2006, staff from various parts of TSA met to discuss the
        agency’s policy on falsification. Based on our subsequent discussions with
        some agency staff, the results of this meeting were a disappointment. Insight
        into how to deal with falsification cases was expected, but the meeting did not
        provide new guidance on how to deal with falsification, according to program
        managers in TSA’s Personnel Security Division.

        Issues of honesty remain in TSA’s criteria for evaluating all applicants, but
        falsification is a complicated issue that can usually be avoided by TSA. If an
        applicant fails to disclose disqualifying behavior, the behavior itself can be
        used to render the individual unsuitable for a TSO position. A senior member
        of the Personnel Security staff agreed that most cases can be resolved in this
        manner, but a small number of cases merit determinations of ineligibility on
        falsification alone. These more serious situations could include a felony
        involving “dishonesty, fraud, or misrepresentation,” which is one of the 28
        disqualifying offenses mandated by Congress. For most cases, however,
        accusations of falsification are unnecessary and can be addressed through
        existing suitability standards.

        For more severe cases where falsification alone may merit ineligibility,
        current or revised suitability guidelines offer an opportunity to help
        adjudicators. For instance, a “false statement” is a moderate issue that can be
        used to find an individual unsuitable. It does not require the same burden of
        proof as falsification. Additionally, it allows for mitigation and is not coupled
        with the potentially severe future employment prohibition and criminal
        penalties of falsification. Of course, TSA retains the authority to develop its
        own suitability standards for honesty outside of OPM’s current rules.

        Recommendation #5: Establish clear and objective policies for adjudication
        of false statements and omissions, including more specific suitability
        guidelines.

        Use of Internal Review Team Lessens the Chance of Adjudication Errors
        A single adjudicator does not always make the final suitability determination.
        The Personnel Security Division uses an internal review team to examine
        many adjudication decisions. The review process, which began in October
        2004, examines all initially ineligible cases and some eligible determinations.
        The internal review team leader said that TSA intends to review 30% of



A Follow-up Review of the Transportation Security Officer Background Check Process 

                                      Page 19

        eligible determinations; however, the availability of files and other issues
        reduces the actual amount to less than 15%.

        After the internal review team examines a case, the team and the adjudicator
        will discuss cases where each reached a different conclusion. If the
        adjudicator is persuaded by the team’s decision, no further intervention is
        necessary and the original adjudication is changed. If consensus remains
        elusive, the Personnel Security Division Director would make the final
        decision. Over their first 2 years, internal review teams reviewed 2,386
        eligible cases and 1,637 ineligible cases. Only 16, less than one percent of the
        eligible cases, were ultimately overturned while internal review changed 106,
        less than seven percent of the ineligible cases, to eligible. These numbers
        include TSOs and other employees adjudicated by the Personnel Security
        Division.

        Although the rate of ineligible overturns from the internal review process is
        low, there is merit to a complete review of all cases. Adjudicators face a
        variety of decisions about each case; human error can be diminished through
        additional review. One prominent example occurred in an October 2003
        adjudication decision. This case, completed before the internal review team
        was created, was an unfortunate incident of mistaken identity. A local
        criminal check found a disqualifying conviction, but the individual’s name did
        not fully match the full name of the TSO. The jurisdiction’s court records did
        not have a date of birth, so the adjudicator erroneously determined the TSO
        should be terminated. The TSO was placed on administrative leave while he
        documented that the adjudication decision was erroneous. After 3 weeks,
        TSA confirmed the veracity of the TSO’s documentation and he was allowed
        to return to work. We are confident the internal review process described to
        us currently lessens the chance of such errors.

        Changes to the way TSA uses data would improve the efficiency of the
        internal review process. Data we reviewed on the rates of overturned
        adjudication decisions were not stratified by type of job. It might be useful
        for TSA to note the percentage of overturns and other data for TSOs
        compared to air marshals, for example. Additionally, the agency could benefit
        from analyzing the rate that individual adjudicators are overturned by internal
        review. Tracking overturns in this manner offers the ability to know if certain
        adjudicators need targeted training or if additional policies or resources may
        be needed to help adjudicators complete their work.

        TSA Should Focus on Decreasing the Number of Adjudication Decisions
        Overturned in the Reconsideration Process
        In 2004, we reported that 42% of TSOs won when they requested further
        review of their ineligible determination. In recent cases, an even higher
        percentage of ineligible adjudication decisions was overturned when
        individuals requested reconsideration. Between October 2004 and October


A Follow-up Review of the Transportation Security Officer Background Check Process 

                                      Page 20

        2006, 1,031 individuals requested reconsideration of their post-adjudication
        ineligibility determination. That was 62% of the number determined
        ineligible for the period. A total of 514 of the 1,031 individuals were
        determined to be eligible after the reconsideration process. Thus, even with
        the internal review process examining every ineligible determination prior to a
        formal rejection, half of the decisions were reversed after individuals initially
        determined to be ineligible asked for a review of their cases. A Personnel
        Security Division official said that reconsiderations are not tracked by type of
        job, so we were not able to determine how many of these reconsiderations
        were TSOs. Since the bulk of the Division’s adjudications are for TSOs, the
        data is illustrative of the TSO reconsideration process. TSOs included in the
        above data would have still been in their probationary period, which, for most
        TSOs, would be two years.

        Various factors, some outside of TSA’s control, explain the high
        reconsideration success rate. The large number of closed-pending cases
        resulting from OPM’s review makes it difficult for TSA to get a complete
        picture of an individual. Adjudicators might make incorrect determinations as
        a result of this incomplete information. Second, matters that seem
        disqualifying to an adjudicator may have been minor or quickly corrected. An
        individual who documents such episodes has a good chance of prevailing in
        reconsideration. Third, some adjudicators might not have examined a case
        thoroughly enough, thereby failing to uncover exculpatory information. One
        Personnel Security Division official said this lack of “robust” adjudications
        hampers the process in some situations. An adjudicator said the existence of
        the internal review team makes one more likely to rule against a marginal
        case. This appears to be an unfortunate byproduct of the internal review
        system. Adjudicators should not see internal review as the means to avoid
        more difficult decisions. Finally, debt problems could get corrected before a
        credit report was adjudicated.

        Personnel Security Division leaders and adjudicators suggested that an
        applicant interview would be one way to gain information that could decrease
        the need for reconsiderations. An interview offers an interpersonal experience
        conducive to explanation and self-disclosure. As TSA conducts an
        examination of the TSO background check process as discussed earlier in this
        report, it should study the utility of a personal interview.

        When asked about the 50 percent reconsideration reversal rate, TSA pointed
        out that many are the result of TSO candidates submitting, only after an
        adverse decision, mitigating information that they should have provided
        earlier to TSA. Posthire letters of interrogatory are frequently not acted on
        with sufficient urgency by the TSO. The level of reconsideration overturns is
        elevated by TSOs failing to respond until a more stringent letter of termination
        is received. We agree that some reconsideration overturns occur because of
        good-faith ineligibility decisions that are later corrected in the light of


A Follow-up Review of the Transportation Security Officer Background Check Process 

                                      Page 21

                   additional information. Nonetheless, our interviews with adjudicators and
                   leaders in TSA’s Personnel Security Division have led us to conclude that
                   additional training for adjudicators would help address some of the issues we
                   discovered, such as overuse of falsification allegations. We believe that a
                   specific training program for TSO adjudications would also help to reduce the
                   rate of reconsideration.

                   We recommend that the Assistant Secretary, TSA:

                   Recommendation #6: Develop training specific to TSO adjudications to
                   focus on ways adjudicators can make more complete and accurate decisions.



Pending Systems Improvements and Administrative Changes Should Improve
the Process
                   One of the inefficiencies described in our January 2004 report noted TSA’s
                   lack of an information technology infrastructure to track TSO background
                   checks efficiently. We noted, “TSA had no comprehensive picture of the
                   status of investigations” because of a limited use of computer systems. What
                   was used to track the process was “wholly inadequate” to manage the
                   process.18 Important progress has been made in this area. With additional
                   work, communication, and resources, TSA can avoid some problematic
                   situations and continue to improve the background check process.

                   Tracking System Should Improve With Pending Redesign
                   The Background Investigations Tracking System is now used by the Personnel
                   Security Division to administer the background check process for TSOs and
                   other positions. Each adjudicator uses the system to update the status of
                   applicants from the beginning of the process. The internal review team also
                   uses the system to track its work. TSA continues to update the system; a
                   redesign is slated for completion in May 2007.

                   The existence of a computerized tracking system is an area of improvement
                   since 2004, but the Background Investigations Tracking System has important
                   limitations in its current form. The system relies on information entered
                   manually, which makes it difficult to ensure complete and consistent data
                   entry by all adjudicators. Another defect is the inability to include more than
                   one entry date per item for each individual. This can cause a great deal of
                   confusion when tracking individual background checks. When TSOs resign
                   and later reapply for another TSO position, nonsensical information displayed
                   in the system makes tracking impossible. In our review of 40 eligible
                   adjudication files, there were 15 individuals who started work in 2006, but had
                   18
                     DHS OIG, A Review of Background Checks for Federal Passenger and
                   Baggage Screeners at Airports, OIG-04-08, January 2004, p. 33.

           A Follow-up Review of the Transportation Security Officer Background Check Process 

                                                 Page 22

        adjudications completed in 2003. This meant the 15 individuals worked as a
        TSO 3 years before, left the position, and returned in 2006. Since their more
        recent background investigation had not yet closed, the original determination
        remained the only date shown in the system.

        The Background Investigation Tracking System is not yet a truly precise
        picture of each individual’s adjudication status. Until the system can
        completely and accurately inform TSA staff at headquarters and airports about
        the adjudication status of applicants and employees, the system’s utility will
        be severely limited.

        The redesigned system will offer several important improvements including:

            • 	 The ability to have more than one date for each entry field;
            • 	 Extra storage space that will allow the inclusion of scanned 

                documents; 

            • 	 Prompts to alert users about incomplete data fields; and
            • 	 Less reliance on Social Security numbers as identifiers, in line with
                federal privacy standards.

        A program manager in Personnel Security Division said that Federal Security
        Directors are able to request access to certain Background Investigation
        Tracking System spreadsheets. This information allows airports to know
        about the status of potential hires and employees. TSA noted in its 2005
        Office of Security Annual Report that the system “provides timely
        information to field staff offices on the status of employee investigations.”
        Our survey demonstrated that further engagement with FSDs is necessary,
        since few see the Background Investigations Tracking System as important to
        operations. In our survey of the FSDs only 2 of 67 respondents, about three
        percent, said the system was very useful to their work, while 42, which is 63
        percent of respondents, noted they had no basis to judge or were not familiar
        with the system. One survey respondent even noted an inability to access the
        system despite repeated attempts. Involving FSDs in the further development
        of the Background Investigations Tracking System would help make the
        system useful to those hiring TSOs.

        Integration of Components’ Information Would Lessen the Chance of
        Conflicting Results in Adjudicaiton and Falsification Issues
        Both TSA’s Personnel Security Division and the Office of Human Capital are
        involved in the TSO adjudication process. Personnel Security completes the
        adjudications and sends letters of interrogatory, while different groups in the
        Office of Human Capital administer the hiring and termination processes.
        After our review of the process, we have concluded changes could be made to
        improve workflow and decrease redundancy.




A Follow-up Review of the Transportation Security Officer Background Check Process 

                                      Page 23

        We reviewed the adjudication files for each of the six Houston TSOs who
        were indicted for providing false information on their background check
        paperwork. One of these individuals received an interrogatory letter from the
        Personnel Security Division asking that he explain the possible falsification
        issues. Just before that letter was sent, airport management fired the
        individual for not being truthful on his employment documents. In this case,
        different parts of TSA were not coordinating on that action. Six months after
        his dismissal, the TSO attempted to get his job back after being exonerated in
        court. In comments sent in response to our survey, a FSD provided a similar
        example. After planning to terminate some employees because of financial
        issues, the airport discovered that the Personnel Security Division was
        working with the TSOs to document mitigation of the concerns. The FSD
        said TSA looks “horribly incompetent” when different parts of the agency
        work in contradictory ways.

        The avoidable nature of these cases illustrates how TSA should use data
        available in one component to minimize mistakes made in the management of
        individual cases. Further integration of TSA components’ data should lessen
        the chance of such problems. To complete the hiring and termination process
        for TSOs, Employee Relations staff in the Office of Human Capital work on a
        system not directly linked to the Background Investigations Tracking System.
        Thus, airport management often does not know the status of the background
        investigation. Communication between airports and headquarters is important
        when adjudicators and airport management are simultaneously reviewing the
        same concern. If airports responsible for terminating employees knew when a
        TSO had a letter of interrogatory pending, TSA could avoid the deliverance of
        a termination letter for an issue being reviewed by the Personnel Security
        Division.

        Recommendation #7: Implement systems changes to ensure that the
        Personnel Security Division, the Office of Human Capital, and Federal
        Security Directors are concurrently aware of a TSO under review for
        termination as a result of the adjudication process.

        TSA Should Increase Resources for the Personnel Security Division and
        Move the Issuance of Termination Letters to that Division
        We discussed the TSO adjudication process with managers and team leaders
        in both TSA’s Personnel Security Division and the Employee Relations
        Division of the Office of Human Capital. The two divisions interact daily
        while hiring, and firing, TSOs. When TSA was working to fulfill hiring
        mandates in 2003, the Office of Human Capital was charged with issuing
        termination letters for those TSOs deemed ineligible by adjudicators.
        Personnel Security officials believe the human resources functions performed
        by the Employee Relations staff naturally fit the role of issuing termination
        letters. Conversely, Employee Relations leadership no longer wishes to
        perform the function of firing ineligible TSOs.


A Follow-up Review of the Transportation Security Officer Background Check Process 

                                      Page 24

                   Issuance of a termination letter starts when the Personnel Security Division
                   officially completes its review of an ineligible case. At that point, Employee
                   Relations staff in the Office of Human Capital receives the documentation in
                   the case file and completes what one manager called a “quick internal review”
                   to ensure the adjudication decision was “sufficient and appropriate.” Then,
                   Employee Relations sends the case back to Personnel Security for a signature
                   on the termination letter, which finally is sent back to Employee Relations for
                   release to the Federal Security Director at the TSO’s airport.

                   We believe this is an inefficient approach. A streamlined process where the
                   Personnel Security Division issues the letters directly would lead to quicker
                   action on TSO terminations. This would save TSA time and resources. The
                   Division charged with conducting the adjudication of candidates should also
                   directly send termination letters for those who are deemed ineligible by the
                   adjudication process.

                   There would be a need to ensure the Personnel Security Division gains
                   sufficient legal and administrative expertise to fully effectuate this more
                   efficient practice. This can be accomplished by fully grasping the Division’s
                   overall needs first, then proceeding with the accumulation of sufficient
                   knowledge that would allow the Division to issue termination letters directly.

                   Further organizational changes may be warranted. Some senior members of
                   the Personnel Security Division suggested their office be merged with the
                   Office of Human Capital to provide maximum efficiency to the background
                   check process. One individual noted, “I always thought suitability was a part
                   of employee relations until I got to TSA.” There may be some merit to this
                   idea, but we are not formally recommending such a course because it would
                   touch on myriad administrative issues outside the scope of this review.

                   We recommend that the Assistant Secretary, TSA:

                   Recommendation #8: Ensure sufficient resources exist in the Personnel
                   Security Division to move the issuance of adjudication termination letters
                   from Employee Relations in the Office of Human Capital to the Personnel
                   Security Division.


An Internal Audit Procedure Could Enhance TSO Background Checks
                   TSA should institute an ongoing internal audit process to ensure continuing
                   improvement in TSO background checks. This process could help discover
                   problems at all levels. Internal audits would allow TSA to continually
                   evaluate the efficiency and utility of the background check process. Knowing
                   more about the validity of each step would allow TSA to make more informed

           A Follow-up Review of the Transportation Security Officer Background Check Process 

                                                 Page 25

        decisions about needed revisions. At the micro level, internal auditing offers
        the ability to examine case files and other parts of the process to determine
        bottlenecks, overdue adjudications, and areas where TSA could benefit from
        additional staff training.

        Statutory Requirements Exist to Perform Internal Audits
        The Aviation and Transportation Security Act required TSA to “review, and
        revise as necessary, any standard, rule, or regulation governing the
        employment of individuals as security screening personnel.”19 TSA is also
        required to “provide for the periodic audit of the effectiveness of criminal
        history record checks” done for the TSO population.20 Fully implementing
        these legal requirements grants TSA the opportunity to ensure ongoing
        improvement in the performance of TSO background checks.

        TSA components do examine their processes. For example, the Office of
        Human Capital has studied and changed various parts of the hiring process.
        Also, as noted, the Personnel Security Division initiated a review of
        falsification issues in an attempt to clarify TSA’s policy in the area. Congress
        envisioned TSA’s use of a more dynamic internal audit process, capable of
        providing insights into how the agency can make strategic and tactical
        changes to the background check process.

        An Internal Auditing Program Would Ensure More Consistent
        Implementation of TSA Policies
        We received information on an internal review conducted by TSA following
        the arrest of the six TSOs in Houston. TSA’s Office of Inspection, an
        independent internal unit reporting to the Assistant Secretary, completed this
        review to determine if the Houston arrests indicated a systemic problem.

        Although this type of review has value for TSA, staff in the Office of
        Inspection noted the office should not be seen as fulfilling the congressional
        intent of systematic reviews of TSO background checks. We concur. The
        Office of Inspection does not help run the operations of TSA’s components; it
        merely reviews problem areas on a generally ad hoc basis and offers
        suggestions.

        TSA needs an ongoing effort that can effect sustained and rigorous change
        throughout the background check process. The development of an internal
        auditing function for the background check process could build on the current
        internal review team in TSA’s Personnel Security Division. This would
        require an expanded mission and extra staffing for that unit. There may be
        merit in simply hiring new staff with expertise in compliance and internal
        auditing to ensure more rapid change.

        19
             49 U.S.C. 44935(e)(3).
        20
             49 U.S.C. 44936(a)(3).

A Follow-up Review of the Transportation Security Officer Background Check Process 

                                      Page 26

                  We agree with TSA’s November 2006 decision to refrain from medical testing
                  of applicants until after completion of prehire credit checks. Ongoing internal
                  review offers the chance to make such basic changes more quickly. TSA can
                  use internal auditing to ensure that its resources are spent wisely and that
                  components of the background check process, such as the pre- and posthire
                  criminal checks, truly complement each other.

                  More vibrant internal auditing presents TSA with an opportunity to realize
                  efficiencies on an ongoing basis. Ad hoc efforts to examine particular
                  problems are not as useful as an ongoing review of the overall background
                  check process. Tracking information from adjudication files, systems, and
                  other sources of data would provide a more complete picture of the
                  background check system. The ability to detect problems can also ensure
                  more consistent implementation of TSA policies.

                  We recommend that the Assistant Secretary, TSA:

                  Recommendation #9: Construct and implement an internal auditing
                  function that will study the overall background check process, including an
                  ongoing review of the type of check performed for the TSO population, to
                  maximize efficiencies and improve the administration of particular segments
                  of the process.

Management Comments and OIG Analysis
                  TSA provided general and technical comments on our draft report, including
                  responses to the recommendations. We considered each of these comments
                  and responses, and additional documentation provided, and made responsive
                  edits and additions to some parts of the report, including revisions to one
                  recommendation.

                  In its response to our draft, TSA noted that the Enhanced Suitability Standards
                  were rescinded on April 23, 2007. TSA noted that various parts of TSA
                  concluded that the standards created “confusion and redundancies.” We
                  believe that TSA’s lack of TSO-specific application materials, not the
                  existence of the enhanced standards, was the source of the problem. Our
                  report continues to note, “Abandoning the standards completely would
                  weaken the agency’s ability to fully consider the impact of some undesirable
                  behaviors in the TSO workforce.” Additional information from TSA on the
                  process by which the enhanced standards were rescinded would provide
                  clarification.

                  TSA fully concurred with eight of the nine recommendations and concurred in
                  part with one recommendation. Below is a summary of TSA’s response to



          A Follow-up Review of the Transportation Security Officer Background Check Process 

                                                Page 27

        each recommendation, and our analysis. Appendix B contains a complete
        copy of TSA’s response.

        Recommendation 1: Create and implement employment forms that collect
        information on the applicant pursuant to eligibility standards. Adjudicators
        should review these forms prior to a Transportation Security Officer’s (TSO)
        entry on duty.

        TSA response: TSA has considered creating and implementing employment
        forms that would capture information regarding the disqualifying offenses and
        suitability factors, and to review these forms prior to a TSO’s entry on duty.
        TSA envisions that applicants will complete the new forms during the online
        application process.

        OIG Analysis: This recommendation is resolved, but remains open. We
        agree that the online application process would be a favorable time for
        applicants to complete the new forms. Providing upfront information to
        applicants will serve to educate applicants more completely about the hiring
        process and permit those with disqualifications to identify themselves and
        withdraw from further consideration. We request that TSA inform us within
        90 days of their progress in implementing this change.

        Recommendation 2: Complete a comprehensive screener position risk
        designation using criteria provided by personnel security officials in the
        Department of Homeland Security and appropriate TSA offices.

        TSA response: TSA states that establishing an official screener position risk
        designation is currently a high priority. No estimation is offered for when it
        might be complete.

        OIG Analysis: The risk designation is key to TSA’s entire background check
        process. This recommendation is resolved, but remains open. We request that
        TSA inform us within 90 days of their progress in implementing this change.

        Recommendation 3: Select the background check most appropriate for the
        TSO position based on the findings from the risk designation process.

        TSA response: TSA agreed to select the background check most appropriate
        for the TSO position based on the findings from the risk designation process.
        TSA also plans to adjust use of forms based on the background check. No
        estimation is offered for when TSA actions will be taken.

        OIG Analysis: This recommendation is resolved, but remains open. TSA has
        articulated a reasonable course that should aid in the final selection of the type
        of background check. Additional documentation on the risk designation
        process and the background check selected will be an important step in the


A Follow-up Review of the Transportation Security Officer Background Check Process 

                                      Page 28

        corrective action process. We request that TSA inform us within 90 days of
        their progress to implement this change.

        Recommendation 4: Issue a notice of disqualification to applicants or a letter
        of termination to TSOs who fail to respond to letters of interrogatory within
        30 days.

        TSA response: TSA states that letters of interrogatory issued to TSOs will
        will be revised to clearly define their responsibility to provide a timely
        response and will document consequences, up to and including removal from
        their position, for non-compliance. No estimation is offered for when these
        revisions will be made.

        OIG Analysis: This recommendation is resolved, but remains open. The
        revision described by TSA will be responsive to the intent of the
        recommendation. We request that TSA inform us within 90 days of their
        progress in implementing this change.

        Recommendation 5: Establish clear and objective policies for adjudication of
        false statements and omissions, including more specific suitability guidelines.

        TSA response: TSA reported that they have established a monthly
        Adjudication Workshop to address issues of uniformity of adjudication
        practices and to provide clearer understanding of TSA considerations.
        Additionally, TSA’s policy on Personnel Security, currently in draft, will
        incorporate falsification considerations and application criteria.

        OIG Analysis: This recommendation is resolved, but remains open. The OIG
        encourages TSA to include its falsification consideration and application
        criteria in the Personnel Security Manual for adjudicators to reference. We
        expect that TSA’s work in this area will decrease the number of falsification
        allegations made against TSOs and applicants, as well as provide a process to
        deal with obvious incidents of falsification. We request that TSA inform us
        within 90 days of their progress in implementing this change.

        Recommendation 6: Develop training specific to TSO adjudications to focus
        on ways adjudicators can make more complete and accurate decisions.

        TSA response: TSA’s response noted that the unique nature of the TSO
        hiring and vetting process creates the need for specialized adjudicator training.
        TSA has established a monthly Adjudication Workshop designed to improve
        consistency through communication of agency-specific policies.

        OIG Analysis: This recommendation is resolved, but remains open. TSA’s
        new Adjudication Workshops appear to be an appropriate forum for
        establishing procedures that would lead to consistent and accurate decisions.


A Follow-up Review of the Transportation Security Officer Background Check Process 

                                      Page 29

        TSA’s response did not indicate how many adjudicators would attend these
        workshops, or how workshop improvements would be communicated to the
        adjudicators not in attendance. We request that TSA inform us within 90 days
        of their progress in implementing this change.

        Recommendation 7: Implement systems changes to ensure that the Personnel
        Security Division, the Office of Human Capital, and Federal Security
        Directors are concurrently aware of a TSO under review for termination as a
        result of the adjudication process.

        TSA response: TSA reports that it is currently developing policy that will
        respect privacy concerns of the officer and also notify Federal Security
        Directors when potentially disqualifying issues are identified during the
        background investigation. This new policy will require coordination with the
        Office of Law Enforcement, the Office of Human Capital, the Office of Chief
        Council, and the Office of Security Operations. No estimation is offered for
        when the policy will be implemented.

        OIG Analysis: This recommendation is resolved, but remains open. The final
        process that develops should help to avoid difficulties encountered when
        TSOs receive contradictory information from different parts of TSA. We
        request that TSA inform us within 90 days of their progress in implementing
        this change.

        Recommendation 8: Ensure sufficient resources exist in the Personnel
        Security Division to move the issuance of adjudication termination letters
        from Employee Relations in the Office of Human Capital to the Personnel
        Security Division.

        TSA response: TSA concurred in part with this recommendation. The agency
        reports that it is conducting position management reviews of several offices
        within TSA. The review of the Personnel Security Division will specifically
        determine what resources that office will need to draft and issue suitability
        termination letters. No estimation is offered for when these reviews will be
        completed.

        OIG Analysis: Although TSA concurred in part, this recommendation is
        resolved, but remains open. The response indicates that the position
        management reviews have already commenced. The response further states
        that the Personnel Security Division should be given the resources it would
        require “to achieve its goals and objectives, including drafting/issuing
        suitability termination letters.” TSA did not describe how it non-concurred
        with this recommendation. We request that TSA inform us within 90 days of
        their progress in implementing this change.




A Follow-up Review of the Transportation Security Officer Background Check Process 

                                      Page 30

        Recommendation 9: Construct and implement an internal auditing function
        that will study the overall background check process, including an ongoing
        review of the type of check performed for the TSO population, to maximize
        efficiencies and improve the administration of particular segments of the
        process.

        TSA response: TSA reports that it will expand upon the internal review
        structure currently within the Personnel Security organization to enhance
        auditing of the background check process.

        OIG Analysis: This recommendation is resolved, but remains open. We
        believe that this function is important to the background check process.
        Implementation of this recommendation will allow TSA find ongoing
        efficiencies. We request that TSA inform us within 90 days of their progress
        in implementing this change.




A Follow-up Review of the Transportation Security Officer Background Check Process 

                                      Page 31

Appendix A
Purpose, Scope, and Methodology




Purpose, Scope, and Methodology
                         The purpose of our review was to determine whether TSA processed
                         background checks of its Transportation Security Officers in an efficient and
                         effective manner and according to applicable laws, federal regulations,
                         guidelines, and standards. The scope of our review focused on background
                         checks of Transportation Security Officers and included administrative and
                         programmatic activities from September 2003 to January 2007.

                         Our fieldwork was conducted from September 2006 to January 2007. During
                         this period, we conducted 21 interviews. Among those interviewed were
                         representatives from TSA’s Personnel Security Division, Office of Human
                         Capital, Office of Counsel, and Office of Inspection. We also interviewed
                         two TSA Federal Security Directors and representatives from two firms with
                         Screening Partnership Program contracts. We used an Internet survey tool to
                         collect data for a judgmental sample of various aspects of the background
                         check process. Of 96 Federal Security Directors who received the survey, 67
                         replied. We also spoke with officials from OPM, our field offices, and the
                         DHS Personnel Security Division.

                         We supplemented these interviews with extensive document review and
                         analysis efforts. We studied related laws, regulations, executive orders, and
                         legal opinions. We reviewed TSA manuals and policy directives, and
                         analyzed TSA employment data. We also reviewed 77 adjudication files of
                         current and former Transportation Security Officers. Lastly, we examined
                         reports from GAO, relevant speeches, testimony, and news articles.

                         This review was conducted under the authority of the Inspector General Act of
                         1978, as amended, and according to the Quality Standards for Inspections,
                         issued by the President’s Council on Integrity and Efficiency.




                 A Follow-up Review of the Transportation Security Officer Background Check Process 

                                                       Page 32

Appendix B
Management Comments on Draft Report




                A Follow-up Review of the Transportation Security Officer Background Check Process 

                                                      Page 33

Appendix B
Management Comments on Draft Report




                A Follow-up Review of the Transportation Security Officer Background Check Process 

                                                      Page 34

Appendix B
Management Comments on Draft Report




                A Follow-up Review of the Transportation Security Officer Background Check Process 

                                                      Page 35

Appendix B
Management Comments on Draft Report




                A Follow-up Review of the Transportation Security Officer Background Check Process 

                                                      Page 36

Appendix B
Management Comments on Draft Report




                A Follow-up Review of the Transportation Security Officer Background Check Process 

                                                      Page 37

Appendix B
Management Comments on Draft Report




                A Follow-up Review of the Transportation Security Officer Background Check Process 

                                                      Page 38

Appendix C
Recommendations from the January 2004 OIG Report


Recommendations From the January 2004 OIG Report
                        In our January 2004 report entitled, A Review of Background Checks for
                        Federal Passenger and Baggage Screeners at Airports, we made the
                        following 12 recommendations:

                        Recommendation 1: Complete screener position risk designations with input
                        from the personnel security officials of the Department of Homeland Security
                        and from appropriate TSA offices, including the Credentialing Program
                        Office, Human Resources Office, and Aviation Operations. Screener position
                        risk designation records, position descriptions, and vacancy announcements
                        should reflect the correct designation.

                        Recommendation 2: Complete the comparison study of the effectiveness of
                        Office of Personnel Management and private sector background checks.
                        Incorporating the review’s results, the Administrator should modify screener
                        background checks as needed to ensure they suit the position risk designation,
                        meet Department of Homeland Security standards, and are cost-efficient.

                        Recommendation 3: Ensure, without exception, that all screeners undergo a
                        fingerprint-based criminal history records check and receive a favorable
                        adjudication before they begin training and work.

                        Recommendation 4: Incorporating guidance from the Department of
                        Homeland Security, define the role that contract adjudicators will play in
                        TSA’s background check process and the minimum requirements that TSA
                        must meet to fulfill its oversight responsibilities.

                        Recommendation 5: Institute precautions to protect against terminations that
                        are based on incorrect information.

                        Recommendation 6: Establish mechanisms to prevent and abort background
                        checks on applicants and employees whom TSA disqualifies.

                        Recommendation 7: Strengthen procedures for completing and retaining the
                        Employment Eligibility Verification Form (Form I-9).

                        Recommendation 8: Implement personnel security management policies and
                        procedures and document departures from them.

                        Recommendation 9: Document the Credentialing Program Office workload
                        and then plan and hire staff to meet workload requirements.

                        Recommendation 10: Ensure that TSA program managers formally document
                        contract modifications and instructions, maintain a substantive presence with


                A Follow-up Review of the Transportation Security Officer Background Check Process 

                                                      Page 39

Appendix C
Recommendations from the January 2004 OIG Report


                        contractors in order to provide guidance and oversight, and require status
                        reports to track mission accomplishment.

                        Recommendation 11: Create a personnel security management tracking
                        system that provides management with accurate, timely, and integrated
                        information on the status of security investigations. The information should
                        reflect the complete cycle of personnel security management, including data
                        on incoming staff, separations, and reconsiderations.

                        Recommendation 12: Improve records management policies, procedures, and
                        practices governing the content, organization, and storage of personnel
                        security management case files.




                A Follow-up Review of the Transportation Security Officer Background Check Process 

                                                      Page 40

Appendix D
Recommendations in This Report



Recommendations in This Report
                        Our current report makes the following recommendations to the Assistant
                        Secretary of the Transportation Security Administration:

                        Recommendation #1: Create and implement employment forms that collect
                        information on the applicant pursuant to eligibility standards. Adjudicators
                        should review these forms prior to a TSO’s entry on duty.

                        Recommendation #2: Complete a comprehensive screener position risk
                        designation using criteria provided by personnel security officials in the
                        Department of Homeland Security and appropriate TSA offices.

                        Recommendation #3: Select the background check most appropriate for the
                        TSO position based on the findings from the risk designation process.

                        Recommendation #4: Issue a notice of disqualification to applicants or a letter
                        of termination to TSOs who fail to respond to letters of interrogatory within
                        30 days of receipt.

                        Recommendation #5: Establish clear and objective policies for adjudication
                        of false statements and omissions, including more specific suitability
                        guidelines.

                        Recommendation #6: Develop training specific to TSO adjudications to
                        focus on ways adjudicators can make more complete and accurate decisions.

                        Recommendation #7: Implement systems changes to ensure that the
                        Personnel Security Division, the Office of Human Capital, and Federal
                        Security Directors are concurrently aware of a TSO under review for
                        termination as a result of the adjudication process.

                        Recommendation #8: Ensure sufficient resources exist in the Personnel
                        Security Division to move the issuance of adjudication termination letters
                        from Employee Relations in the Office of Human Capital to the Personnel
                        Security Division.

                        Recommendation #9: Construct and implement an internal auditing function
                        that will study the overall background check process, including an ongoing
                        review of the type of check performed for the TSO population, to maximize
                        efficiencies and improve the administration of particular segments of the
                        process.




                A Follow-up Review of the Transportation Security Officer Background Check Process 

                                                      Page 41

Appendix E
28 Disqualifying Felonies



    28 Disqualifying Felonies
                              Pursuant to 49 U.S.C. § 44936(b) and 49 C.F.R. § 1542.209(d), applicants
                              convicted of one or more of the following 28 felony crimes within the past
                              ten years are not eligible to serve as screeners:

                              1. Forgery of certificates, false marking of aircraft, and other aircraft
                                  registration violation, 49 U.S.C. 46306;
                              2. Interference with air navigation, 49 U.S.C. 46308;
                              3. Improper transportation of a hazardous material, 49 U.S.C. 46312;
                              4. Aircraft piracy, 49 U.S.C. 46502;
                              5. Interference with flight crew members or flight attendants, 49 U.S.C.
                                  46504;
                              6. Commission of certain crimes aboard aircraft in flight, 49 U.S.C.
                                  46506;
                              7. Carrying a weapon or explosive aboard aircraft, 49 U.S.C. 46505;
                              8. Conveying false information and threats, 49 U.S.C. 46507;
                              9. Aircraft piracy outside the special aircraft jurisdiction of the United
                                  States, 49 U.S.C. 46502(b);
                              10. Lighting violations involving transporting controlled substances, 49
                                  U.S.C. 46315;
                              11. Unlawful entry into an aircraft or airport area that serves air carriers or
                                  foreign air carriers contrary to established security requirements, 49
                                  U.S.C. 46314;
                              12. Destruction of an aircraft or aircraft facility, 18 U.S.C. 32;
                              13. Murder;
                              14. Assault with intent to murder;
                              15. Espionage;
                              16. Sedition;
                              17. Kidnapping or hostage taking;
                              18. Treason;
                              19. Rape or aggravated sexual abuse;
                              20. Unlawful possession, use, sale, distribution, or manufacture of an
                                  explosive or weapon;
                              21. Extortion;
                              22. Armed or felony unarmed robbery;

                    A Follow-up Review of the Transportation Security Officer Background Check Process 

                                                          Page 42

Appendix E
28 Disqualifying Felonies


                              23. Distribution of, or intent to distribute, a controlled substance;
                              24. Felony arson;
                              25. Felony involving a threat;
                              26. Felony involving:
                                    a) willful destruction of property;
                                    b) importation or manufacture of a controlled substance;
                                    c) burglary;
                                    d) theft;
                                    e) dishonesty, fraud, or misrepresentation;
                                    f) possession or distribution of stolen property;
                                    g) aggravated assault;
                                    h) bribery; or
                                    i) illegal possession of a controlled substance punishable by a
                                        maximum term of imprisonment of more than one year;
                              27. Violence at international airports, 18 U.S.C. 37;
                              28. Conspiracy or attempt to commit any of the criminal acts listed above.




                    A Follow-up Review of the Transportation Security Officer Background Check Process 

                                                          Page 43

Appendix F
Survey Questions and Answers




        Survey Questions and Answers
        1. 	 Please select the security category(ies) of the airport(s) under your jurisdiction
                            Responses
        X                   18
        I                   39
        II                  16
        III                 17
        IV                  18

        2. 	 From your perspective, how well does TSA’s process for checking the backgrounds
             of screeners identify and reject applicants or employees with certain types of
             criminal or credit problems, or other potentially disqualifying factors?
                                                     Responses
        5 (the process works very well)                  6
        4                                                17
        3 (the process works adequately)                 23
        2                                                17
        1 (the process works poorly)                     3

        3. 	 From your perspective, does the time required to complete a TSO’s background
             check cause staffing issues or other difficulties at your airport(s)?
                                                                         Responses
        No or very few problems, the process does
        not impact day-to-day operations                                        14

        A few problems, the process could be faster 	                                     41

        Many difficulties arise from the slowness of the process 	                        11

        4. 	 In your opinion, how easy is it to work with TSA Headquarters to resolve any issues
             related to the background check process for TSOs at your airport(s)?
                                                 Responses
        5 (very easy)                            5
        4                                        12
        3 (few or minor issues)                  27
        2                                        10
        1 (very difficult)                       9


        5. 	 Do you have any concern about TSA’s ability to ensure that only U.S. citizens are
             eligible for employment as TSOs?
                            Responses
        Yes                    11


                  A Follow-up Review of the Transportation Security Officer Background Check Process 

                                                        Page 44

Appendix F
Survey Questions and Answers


        No                      	56

        6. 	 To what extent does TSA’s Background Investigation Tracking System (BITS) play
             a role in your management of the TSO hiring process or your ability to respond to
             applicant or TSO inquiries about their background check?
                                                      Responses
        5 (BITS is very useful)                       2
        4                                             4
        3 (BITS provides some help)                   16
        2                                             3
        1 (BITS does not help by my airport(s)        4
        No basis to judge/not familiar with BITS      38

        7. 	 Has a situation arisen where you were hesitant to dismiss TSOs with poor
             performance because of concerns that the background checks for replacement
             employees would take too long or lead to new hires with potentially disqualifying
             criminal or credit problems?
                           Responses
        Yes                5
        No                 62

        8. 	 What is your assessment of TSA’s standard that $5,000 of bad debt is a
             disqualifying factor for a TSO position?
                                                         Responses
        The standard does not need to be revised. It is
        a sufficient way to limit criminal conduct or
        diminish security concerns.                      29

        There is some merit to keeping the policy or
        revising the amount to a limited extent.                    21

        I recommend TSA consider revising this standard
        because it prohibits good employees from either
        becoming a TSO or keeping their job as a TSO.               10

        I recommend TSA consider revising this standard
        because it does not sufficiently detect criminal or
        security risks in the applicant or TSO population.          7

        9. 	 In general, do you belive that TSO applicants are sufficiently informed about the
             credit and criminal standards that will be used to determine their suitability for
             work as a TSO?
                           Responses
        Yes         47
        No          19


                  A Follow-up Review of the Transportation Security Officer Background Check Process 

                                                        Page 45

Appendix F
Survey Questions and Answers


        10. 	Please share any additional comments you believe may be helpful in our review.
            This could include positive comments about TSA’s background check process,
            descriptions of specific cases in which you encountered difficulties with background
            checks, or you suggestions on how TSA could improve the background check
            process.




                  A Follow-up Review of the Transportation Security Officer Background Check Process 

                                                        Page 46

   Appendix G
   Prehire Background Investigation Process




                      Prehire Background Investigation Process

                           At airport assessment center, applicant completes:
                               • OF-306
                               • Fair Credit Reporting Act Authorization
                               • Authorization for Release of Medical
                                   Information
                               • Authorization for Release of Information
                               • Non-disclosure Information
                               • Electronic fingerprints




TSA runs applicants’ names            Kroll performs                                  Electronic fingerprints are
through terrorist watch lists             • Credit check                              sent to the FBI
and TSA no-hire list                      • Local court check




                           TSA receives results from all sources electronically.
                           Personnel Security Division prehire adjudicator checks:
                              • Kroll credit check for $5,000 bad credit threshold
                              • FBI fingerprint record for unsuitable or
                                  disqualifying felonies




                                 Interrogatory letter(s) clarify potential problems



                           Personnel Security Division informs airport electronically
                           of applicant’s status. If applicant is eligible, airport
                           contacts applicant to schedule a start date.




                     A Follow-up Review of the Transportation Security Officer Background Check Process 

                                                           Page 47

Appendix H
Posthire Background Investigation Process




                    Posthire Background Investigation Process

                                  After being hired, new TSOs fill out
                                  an electronic version of the SF-86
                                  form


                                  Electronically, OPM receives SF-86.
                                  OPM performs ANACI background
                                  investigation, which includes:
                                      • National Agency Check
                                      • Employment, education
                                          check
                                      • Credit check


                                  Posthire Adjudicators check:
                                     • ANACI results for suitability,
                                          disqualifying felonies and
                                          $5000 of bad debt
                                     • Kroll Court Check for
                                          suitability, disqualifying
                                          felonies


                                  Interrogatory letter(s) clarify potential
                                  problems



                                  After adjudicator’s decision, internal
                                  review team checks posthire
                                  adjudicators’ work (all ineligible and                Disciplinary review board
                                  some eligible determinations)                         can hear appeals for non-
                                                                                        probationary TSOs


                                  Background Investigation Tracking
                                  System informs airport electronically
                                  that the applicant has been fully
                                  cleared.




                 A Follow-up Review of the Transportation Security Officer Background Check Process 

                                                       Page 48

Appendix I
Major Contributors to the Report




                          Douglas Ellice, Chief Inspector, Department of Homeland Security, Office of
                          Inspections

                          Darin Wipperman, Inspector, Department of Homeland Security, Office of
                          Inspections

                          W. Preston Jacobs, Inspector, Department of Homeland Security, Office of
                          Inspections




                  A Follow-up Review of the Transportation Security Officer Background Check Process 

                                                        Page 49

        Department of Homeland Security

        Secretary
        Deputy Secretary
        Chief of Staff
        Deputy Chief of Staff
        General Counsel
        Assistant Secretary, Transportation Security Administration
        Assistant Secretary for Public Affairs
        Assistant Secretary for Legislative and Intergovernmental Affairs
        Assistant Secretary for Policy
        Chief Security Officer
        Chief Privacy Officer
        TSA Audit Liaison
        DHS OIG Liaison

        Office of Management and Budget

        Chief, Homeland Security Branch
        DHS Program Examiner


        Congress

        Congressional Oversight and Appropriations Committees, as appropriate




A Follow-up Review of the Transportation Security Officer Background Check Process 

                                      Page 50

Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General (OIG) at (202)
254-4199, fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG Hotline
To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or
noncriminal misconduct relative to department programs or operations:

    •    Call our Hotline at 1-800-323-8603;
    •    Fax the complaint directly to us at (202) 254-4292;
    •    Email us at DHSOIGHOTLINE@dhs.gov; or
    •	   Write to us at:
           DHS Office of Inspector General/MAIL STOP 2600, Attention:
           Office of Investigations - Hotline, 245 Murray Drive, SW, Building 410, Washington,
           DC 20528.

The OIG seeks to protect the identity of each writer and caller.




               A Follow-up Review of the Transportation Security Officer Background Check Process 

                                                     Page 51

